No. 21_
JOSE LEONEL BONILLA-ROMERO,
ALSO KNOWN AS JOSE TUPAPA,
Petitioner,
V.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE
I, Cooke Kelsey, a member of the bar of this Court,
hereby certify that, on this 29th day of May 2021, all
parties required by the Rules of this Court to be served
have been served. One copy of the Petition for A Writ
of Certiorari was sent via three day service and email
to counsel at the email address on the service list.
/s/ Cooke Kelsey
Counsel of Record

SERVICE LIST
Elizabeth B. Prelogar

2

ACTING SOLICITOR
GENERAL U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530
SupremeCtBriefs@usdoj.gov
Counsel for Respondent

